CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6 of the Rules of this Court, Respondents Cox
Communications, Inc.; CoxCom, LLC; and Cox Communications California, LLC
provide the following corporate disclosure statement:
Cox is a privately held corporation owned by Cox DNS, Inc. (“CDI”) and Cox
Enterprises, Inc. (“CEI”). CDI is a wholly-owned subsidiary of CEI. CEI is a
privately held corporation with no corporation holding 10 percent or more of its
stock holdings. Cox is the sole member of CoxCom, LLC, a limited liability company,
which, in turn, is the sole member of Cox Communications California, LLC, a
limited liability company.

08277.055 4839-6572-1008.1

